       DEPARTMENT OF HEALTH & HUMAN SERVICES                                   Office of Inspector General

                                                                               Washington, D.C. 20201




June 15, 2010

TO:             Mary Wakefield, Ph.D., R.N.
                Administrator
                Health Resources and Services Administration


FROM:           /Lori S. Pilcher/
                Assistant Inspector General for Grants, Internal Activities,
                  and Information Technology Audits


SUBJECT:        Results of Limited Scope Review at Community Health Centers of Greater
                Dayton (A-05-10-00036)


The attached final report provides the results of our limited scope review at Community Health
Centers of Greater Dayton (Dayton Health Centers). In accordance with the Recovery Act, the
Office of Inspector General (OIG) will provide oversight of covered funds to prevent fraud,
waste and abuse.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector
General (OIG) post its publicly available reports on the OIG Web site. Accordingly, this report
will be posted at http://oig.hhs.gov.

Please send us your final management decision, including any action plan, as appropriate, within
60 days. If you have any questions or comments about this report, please do not hesitate to
contact me at (202) 619-1175 or through email at Lori.Pilcher@oig.hhs.gov. Please refer to
report number A-05-10-00036 in all correspondence.


Attachment
  Department of Health & Human Services
            OFFICE OF
       INSPECTOR GENERAL




RESULTS OF LIMITED SCOPE REVIEW
 AT COMMUNITY HEALTH CENTERS
      OF GREATER DAYTON




                       Daniel R. Levinson
                        Inspector General

                           June 2010
                         A-05-10-00036
                       Office of Inspector General
                                         http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits
with its own audit resources or by overseeing audit work done by others. Audits examine the
performance of HHS programs and/or its grantees and contractors in carrying out their respective
responsibilities and are intended to provide independent assessments of HHS programs and operations.
These assessments help reduce waste, abuse, and mismanagement and promote economy and efficiency
throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues. These
evaluations focus on preventing fraud, waste, or abuse and promoting economy, efficiency, and
effectiveness of departmental programs. To promote impact, OEI reports also present practical
recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud
and misconduct related to HHS programs, operations, and beneficiaries. With investigators working in
all 50 States and the District of Columbia, OI utilizes its resources by actively coordinating with the
Department of Justice and other Federal, State, and local law enforcement authorities. The
investigative efforts of OI often lead to criminal convictions, administrative sanctions, and/or civil
monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support for
OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and abuse cases
involving HHS programs, including False Claims Act, program exclusion, and civil monetary penalty
cases. In connection with these cases, OCIG also negotiates and monitors corporate integrity
agreements. OCIG renders advisory opinions, issues compliance program guidance, publishes fraud
alerts, and provides other guidance to the health care industry concerning the anti-kickback statute and
other OIG enforcement authorities.
                            Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
                at http://oig.hhs.gov

  Section 8L of the Inspector General Act, 5 U.S.C. App., requires
  that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as
questionable, a recommendation for the disallowance of costs
incurred or claimed, and any other conclusions and
recommendations in this report represent the findings and opinions
of OAS. Authorized officials of the HHS operating divisions will
make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to P.L. 104-299, Health Centers Consolidation Act of 1996, health centers provide
services to a population that is medically underserved. Within the U.S. Department of Health &
Human Services, the Health Resources and Services Administration (HRSA) administers the
Health Center program. The HRSA health centers are community-based and patient-directed
organizations that serve populations with limited access to health care.

Under The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, HRSA received $2.5 billion for health centers over 2 years. HRSA
made four types of grants available to health centers to provide for: new access points, increased
demand for services, facilities investment programs, and capital improvement programs. Grants
were provided to new and existing health centers, and a center could have received more than
one type of grant.

The Community Health Centers of Greater Dayton (Dayton Health Centers) is a non-profit
organization founded in 2007 to improve access to high-quality, affordable primary health care
in the region. Dayton Health Centers was formed out of three established locations: Charles
Drew, Corwin Nixon, and East Dayton Health Centers.

Dayton Health Centers is funded primarily through HRSA grants, Medicare, Medicaid, local
grants, donations, and insurance payments. During fiscal year 2009, HRSA awarded three
separate two-year Recovery Act grants totaling $1,651,000 to Dayton Health Centers.

OBJECTIVE

Our objective was to assess Dayton Health Centers’ financial viability, capacity to manage and
account for Federal funds, and capability to operate a Community Health Center in accordance
with Federal regulations.

SUMMARY OF FINDINGS

Based on our assessment, Dayton Health Centers managed and accounted for Federal funds in
accordance with Federal regulations. However, we found that Dayton Health Centers lacked
written policies and procedures for accounting for property, cash receipts and disbursements,
purchasing, Federal Deposit Insurance Corporation (FDIC) limit, and Federal grant reporting.

RECOMMENDATION

In determining whether Dayton Health Centers is appropriately managing and accounting for the
Recovery Act grant funding, we recommend that HRSA consider the information presented in
this report in assessing Dayton Health Centers’ ability to operate a Community Health Center in
accordance with Federal regulations.



                                                 i
DAYTON HEALTH CENTER COMMENTS

In written comments on our draft report, Dayton Health Centers stated that it has developed and
is implementing written policies and procedures for accounting for property, cash receipts and
disbursements, purchasing, FDIC limit, and Federal grant reporting.




                                               ii
                                                  TABLE OF CONTENTS
                                                                                                                              Page

INTRODUCTION................................................................................................................1

          BACKGROUND .......................................................................................................1
              The Health Center Program ...........................................................................1
              Community Health Centers of Greater Dayton .............................................1
              Requirements for Federal Grantees ………………………………………...1

          OBJECTIVE, SCOPE, AND METHODOLOGY .....................................................2
               Objective ........................................................................................................2
               Scope ..............................................................................................................2
               Methodology ..................................................................................................2

FINDING AND RECOMMENDATION ...........................................................................3

          POLICIES AND PROCEDURES………………………………………………….3

          RECOMMENDATION .............................................................................................4

          DAYTON HEALTH CENTER COMMENTS……………………………………..4

APPENDIX: DAYTON HEALTH CENTER COMMENTS




                                                                    iii
                                           INTRODUCTION

BACKGROUND

The Health Center Program

Pursuant to Public Law 104-299, the Health Centers Consolidation Act of 1996, health centers
provide services to a population that is medically underserved. Within the U.S. Department of
Health & Human Services, the Health Resources and Services Administration (HRSA)
administers the Health Center program.

The HRSA health centers are community-based and patient-directed organizations that serve
populations with limited access to health care. The health centers provide comprehensive,
culturally competent, quality primary health care services to medically underserved communities
and vulnerable populations.

Under The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, HRSA received $2.5 billion for health centers and other activities.
HRSA made available four types of grants to health centers to provide for: new access points,
increased demand for services, facilities investment programs, and capital improvement
programs. Grants were provided to new and existing health centers, and a center could have
received more than one type of grant.

Community Health Centers of Greater Dayton

The Community Health Centers of Greater Dayton (Dayton Health Centers) is a non-profit
organization founded in 2007 to improve access to high-quality, affordable primary health care
in the region. Dayton Health Centers was formed out of three established locations: Charles
Drew, Corwin Nixon, and East Dayton Health Centers.

Dayton Health Centers is funded primarily through HRSA grants, Medicare, Medicaid, local
grants, donations, and insurance payments. During fiscal year 2009, HRSA awarded three
separate two-year Recovery Act grants 1 totaling $1,651,000 to Dayton Health Centers.

Requirements for Federal Grantees

Pursuant to 45 CFR part 74, grantees of Federal awards must implement written accounting
policies and procedures and maintain financial systems that provide for accurate and complete
reporting of grant related financial data, effective control over grant funds, and allocation of
costs to all benefitting programs. In addition, grantees must establish written procurement
procedures. Grantees are also required to maintain inventory control systems and take periodic
physical inventory of grant related equipment. In addition, pursuant to 45 CFR § 74.27, the

1
 The new access point grant period was from March 1, 2009, through February 28, 2011. The increased demand for
services grant period was from March 27, 2009, through March 26, 2011. The capital improvement program grant
period was from June 29, 2009, through June 28, 2011.
                                                      1
allowability of costs incurred by nonprofit organizations is determined in accordance with the
provisions of Office of Management and Budget Circular A-122, Cost Principles for Nonprofit
Organizations. Finally, section 330 of the Public Health Service Act (42 USCS § 254b) defines
requirements for health centers under the Health Center program.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to assess Dayton Health Centers’ financial viability, capacity to manage and
account for Federal funds, and capability to operate a Community Health Center in accordance
with Federal regulations.

Scope

We conducted a limited scope audit to assess Dayton Health Centers’ capacity to manage,
account for, and report Recovery Act funds and to operate a HRSA funded health center in
accordance with Federal regulations. Therefore, we did not perform an overall assessment of
Dayton Health Centers’ internal control structure. Rather, we reviewed only the internal controls
that pertained directly to our objective. Our review period was July 1, 2008, through January 1,
2010.

We performed our fieldwork at the Dayton Health Centers’ administrative office located at the
Charles Drew Health Center in Dayton, Ohio, during January 2010.

Methodology

To accomplish our audit objective, we:

   •    confirmed that Dayton Health Centers was not excluded from receiving Federal funds;

   •    reviewed relevant Federal laws, regulations, and guidance;

   •    reviewed Dayton Health Centers’ application and implementation of the grant awards for
        the Recovery Act funding;

   •    reviewed the findings related to the most recent HRSA review;

   •    reviewed Dayton Health Centers’ policies and procedures related to the Health Center
        Program;

   •    reviewed Dayton Health Centers’ by-laws, minutes from its Board of Director meetings,
        and its organizational chart;

   •    performed audit steps to assess the adequacy of Dayton Health Centers’ current financial
        systems; and
                                                2
   •   reviewed Dayton Health Centers’ financial statements and supporting documentation for
       the period of July 1, 2008, through November 30, 2009.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objectives.

                           FINDING AND RECOMMENDATION

Based on our assessment, Dayton Health Centers managed and accounted for Federal funds in
accordance with Federal regulations. However, we found that Dayton Health Centers lacked
written policies and procedures for accounting for property, cash receipts and disbursements,
purchasing, Federal Deposit Insurance Corporation (FDIC) limit, and Federal grant reporting.

POLICIES AND PROCEDURES

Pursuant to 45 CFR part 74, grantees of Federal awards must implement written accounting
policies and procedures and maintain financial systems that provide for accurate and complete
reporting of grant related financial data, effective control over grant funds, and allocation of
costs to all benefitting programs.

Although we did not find any discrepancies, we identified the need for additional policies and
procedures that are required for Federal grantees. In order to comply with Federal regulations,
Dayton Health Centers needs to implement policies and procedures for:

   •   inventory of property,

   •   cash receipts and disbursements,

   •   purchasing,

   •   maintaining the FDIC limit with financial institutions, and

   •   grant reporting based on Federal requirements.

Although we did not find any discrepancies in inventory of property, cash receipts and
disbursements, purchasing, bank balances in excess of $250,000, or improper grant reporting,
Dayton Health Centers did not have these written policies and procedures as required for Federal
grantees. The development and implementation of written policies and procedures is essential
considering Dayton Health Centers has property and equipment with a booked cost in excess of
$275,000. Additionally, the large award of Recovery Act funds could result in balances
exceeding the $250,000 FDIC insured limit.
                                                3
RECOMMENDATION

In determining whether Dayton Health Centers is appropriately managing and accounting for the
Recovery Act grant funding, we recommend that HRSA consider the information presented in
this report in assessing Dayton Health Centers’ ability to operate a Community Health Center in
accordance with Federal regulations.

DAYTON HEALTH CENTER COMMENTS

In written comments on our draft report, Dayton Health Centers stated that it has developed and
is implementing written policies and procedures for accounting for property, cash receipts and
disbursements, purchasing, FDIC limit, and Federal grant reporting.




                                               4
APPENDIX
                        APPENDIX: DAYTON HEALTH CENTER COMMENTS



                     Community Health Centers of Greater Dayton
                              1323 West 3rd Street· Dayton, Ohio 45402-6714
 March 24, 2010

 Mr. James C. Cox, 

 Regional Inspector General for Audit Services 

 Department of Health and Human Services 

 Office of Audit Services 

 Office of Inspector General 


 Re: Report Number A-OS-10-00036 


 Dear Mr. Cox, 


 The following is our response to the findings indicated in the review dated March 10,2010. 


 FINDINGS: Lack of written policy and procedures for inventory of property. 

 Response: The policy and procedure for inventory of property will be written, approved by our Board of 

 Directors and implemented no later than May 7,2010. 


 FINDINGS: Lack of written policy and procedures for cash disbursements and receipts. 

 Response: The policy and procedure for cash disbursements and receipts will be written, approved by 

 our Board of Directors and implemented no later than May 7,2010. 


 FINDINGS: Lack of written policy and procedures for purchasing. 

 Response: A Procurement Policy was written and approved by our Board of Directors at their meeting on 

 January 21, 2010. That policy was implemented immediately. 


 FINDINGS: Lack of written policy and procedures for maintaining the FDIC limit with financial 

 institutions. 

 Response: The policy and procedure for maintaining the FDIC limit with financial institutions will be 

 written, approved by our Board of Directors and implemented no later than May 7,2010. 


 FINDINGS: Lack of written policy and procedures for grant reporting based on Federal requirements. 

 Response: The policy and procedure for grant reporting will be written, approved by our Board of 

 Directors and implemented no later than May 7,2010. 


 Feel free to contact me if you have any further questions or concerns.

 Sincerely,



 Gregory Hopkins 

 Executive Director 



Doing Business As:

              Charles Drew Health Center   East Dayton Health Center    Corwin Nixon Health Center
                 1323 West 3rd Street        2132 East Third Street        2351 Stanley Avenue
                 Dayton, Ohio 45402           Dayton, Ohio 45403           Dayton, Ohio 45404
                    (937) 461 -4336             (937) 528-6850               (937) 228-0990
